Audit Report




OIG-11-009
SAFETY AND SOUNDNESS: Failed Bank Review of First National
Bank, Rosedale, Mississippi
November 3, 2010




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             November 3, 2010


            OIG-11-009

            MEMORANDUM FOR JOHN WALSH
                           ACTING COMPTROLLER OF THE CURRENCY

            FROM:                  Jeffrey Dye /s/
                                   Director, Banking Audits

            SUBJECT:               Failed Bank Review of First National Bank, Rosedale,
                                   Mississippi


            This memorandum presents the results of our review of the failure of First National
            Bank located in Rosedale, Mississippi (First National). First National was established
            in 1907, insured as a state non-member bank in 1941, and chartered as a national
            bank in 1971. First National operated one office. The Office of the Comptroller of
            the Currency (OCC) closed First National and appointed the Federal Deposit
            Insurance Corporation (FDIC) as receiver on June 4, 2010. As of March 31, 2010,
            First National had approximately $60.4 million in total assets and $63.5 million in
            total deposits. FDIC estimated that the loss to the Deposit Insurance Fund is $12.6
            million.

            Because the loss to the Deposit Insurance Fund is less than $200 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
            review of the failure of First National that was limited to (1) ascertaining the
            grounds identified by OCC for appointing the FDIC as receiver and (2) determining
            whether any unusual circumstances exist that might warrant a more in-depth
            review of the loss. In performing our review we (1) examined documentation
            related to the appointment of FDIC as receiver, (2) reviewed OCC reports of
            examination, and (3) interviewed OCC examination personnel.

            We conducted this performance audit in September 2010 in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform the audit to obtain sufficient, appropriate evidence to provide
            a reasonable basis for our findings and conclusions based on our audit objectives.
            We believe that the evidence obtained provides a reasonable basis for our findings
            and conclusions based on our audit objectives.
OIG-11-009
Page 2

Causes of First National’s Failure
The primary causes of First National’s failure were its inappropriate underwriting and
credit administration practices for its agricultural loans. Bank management structured
agricultural loans as open-ended revolving lines of credit. The bank carried over unpaid
balances at the end of the year, including capitalized interest, to next year’s loans.
Management failed to recognize losses on the unpaid agricultural loans that remained
in the bank’s loan portfolio.

In addition, the bank continued to lend and extend lines of credit to borrowers who
were unable to repay their loans and/or lines of credit with crop income. The bank
lacked both limits on agricultural loans and a process to track concentration levels.
The significant amount of uncollectible agricultural loans in the bank’s portfolio
threatened the bank’s viability by adversely impacting the bank’s capital and earnings.
Increased loan losses and provision expenses caused the bank’s capital levels to fall to
critically undercapitalized, which ultimately led to the bank’s failure.

Conclusion
Based on our review of the causes of First National’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure or the supervision
exercised by OCC. Accordingly, we have determined that a more in-depth review of
the bank’s failure by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated it agreed with our conclusion as to the causes of First
National’s failure and that it had no concerns with our determination that an in-
depth review of the bank’s failure was not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or
Rashmi Bartlett, Audit Manager, at (202) 927-5839.

Attachments
         OIG-11-009

       Attachment 1
Management Response
                                                   OIG-11-009

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
